HHS/OIG-Audit--"Review of Health Care Financing Administration's Regional
Office Accounts Receivable In Region IX, (A-09-99-00087)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Health Care Financing Administration's Regional Office Accounts
Receivable in Region IX," (A-09-99-00087)
March 31, 2000
Complete Text of Report is available in PDF format
(276 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
In accordance with an interagency agreement, the Office of Inspector General
(OIG) has performed a review of the Health Care Financing Administration's (HCFA)
Region IX accounts receivable beginning balance at October 1, 1998 and additional
receivable activity for the 6 months ended March 31, 1999. The results of our
review will be considered in the preparation of the Fiscal Year (FY) 1999 financial
statements for HCFA.
We found that Region IX's accounts receivable were overstated by a net $123.1
million, and that financial adjustments and procedural improvements need to
be made or else HCFA's FY 1999 financial statements could be misstated. The
$123.1 million is the net of total overstatements of $143.2 million offset by
$20.1 million of unrecorded transfers from Medicare contractors.